TN

sma  (CQCKLE

. E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs contact@cocklelegalbriefs.com
Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-285
JERUD BUTLER,
Petitioner,
v.

BOARD OF COUNTY COMMISSIONERS
FOR SAN MIGUEL COUNTY, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE NATIONAL
WHISTLEBLOWER CENTER AS AMICUS CURIAE IN SUPPORT OF PETITIONER in the

above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this

brief contains 3100 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),
as needed.

Subscribed and sworn to before me this 1st day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska . ,
My Commission Expires Nov 24, 2020 af

Notary Public Affiant

 

38761
